No.
IN THE
SUPREME COURT OF THE UNITED STATES

JOSEPH A. HOLLAHAN, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
On Petition For Writ Of Certiorari
To The Supreme Court Of Illinois
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner requests leave to proceed in forma pauperis. The Petitioner
has previously been granted leave to proceed in forma pauperis in the court below.
Counsel was appointed to represent petitioner in the court below pursuant to 725
ILLS 105/10(a).
Respectfully submitted,
~1,c9 ~►.pJ Q -csz~

THOMAS A. KARALIS
Counsel of Record
Deputy Defender
Office of the State Appellate Defender
Third Judicial District
770 E. Etna Rd.
Ottawa, IL 61350
(815) 434-5531
3rdDistrict~osad.state.il.us
COUNSEL FOR PETITIONER
Of Counsel:
Santiago A. Durango
Assistant Appellate Defender

